U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 18, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Bakor v. Garland, No. 20-837
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 17,
2020. The government’s response is now due, after two extensions, on March 19, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including March 22, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-0837
BAKOR, TUA M.L.
MERRICK B. GARLAND, ATTORNEY GENERAL

ELIZABETH G. BENTLEY
JONES DAY
90 SOUTH SEVENTH STREET
SUITE 4950
MINNEAPOLIS, MN 55402
612-217-8866
EBENTLEY@JONESDAY.COM
ELAINE JANET GOLDENBERG
MUNGER, TOLLES & OLSON LLP
601 MASSACHUSETTS AVENUE, NW
SUITE 500E
WASHINGTON, DC 20001-5369
202-220-1114
ELAINE.GOLDENBERG@MTO.COM

